No.

M QJME

Supreme (Eimrt itf %\\t finite &tntzn
IN RE SUPERVISED ESTATE OF AL KATZ:
LAWRENCE T. NEWMAN
Petitioner,
v.
ROBERT W. YORK,
as Personal Representative,
INTERNAL REVENUE SERVICE, and
STATE OF INDIANA,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF INDIANA
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(b), I certify that the Petition
for a Writ of Certiorari contains 8,976 words, excluding the parts of the
Petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

uAwRENCE

T. NEWMAN

Pro Se
4102 66th Street Circle West
Bradenton, FL 34209
(317) 397-5258

